=
I

@OCKLE

2311 Douglas Street j
Omaha, Nebraska 68102-1214 L € 8g a | B tiefe
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-1012
GENERAL ELECTRIC COMPANY,
Petitioner,
v.
UNITED TECHNOLOGIES CORPORAT!
Respondent.
AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

ION,

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF UNIFIED PATENTS, LLC; ENGINE ADVOCACY;
CABLE TELEVISION LABORATORIES, INC.; THE R STREET INSTITUTE; AND THE NISKANEN CENTER AS
AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Jonathan Stroud Ruthanne M. Deutsch
UNIFIED PATENTS, LLC. Counsel of Record
1875 Connecticut Ave. NW Hyland Hunt
Floor 10 DEUTSCH HUNT PLLC
Washington, DC 20009 300 New Jersey Ave. NW
Suite 900
Abigail A. Rives Washington, DC 20001
ENGINE ADVOCACY (202) 868-6915
700 Pennsylvania Ave. SE rdeutsch@deutschhunt.com
Second Floor

Washington, DC 20003

Subscribed and sworn to before me this 16th day of March, 2020.

I am duly authorized under the laws of the State of Nebraska to administer oaths.

Loss

  

i GENERAL WOTARY-State of Hebraska
RENEE J, GOSS

My Comm. Exp. September §, 2023.

  

Notary Public

Oud Kh, Glely

Affiant 39561
 

 

Attorneys for Petitioner

Gregory George Garre Latham & Watkins LLP
Counsel of Record 555 11th Street, NW
Suite 1000

Washington, DC 20004

gregory.garre@lw.com

Party name: General Electric Company

 

Attorneys for Respondent

Taylor Ann Rausch Meehan Bartlit Beck LLP

Counsel of Record 54 W. Hubbard St., Ste. 300

Chicago, IL 60654

 

taylor. meehan@bartlit-beck.com

Party name: United Technologies Corporation

 

 
